U.S. Department of                                  The Inspector General         Office of Inspector General
Transportation                                                                    Washington, DC 20590
Office of the Secretary
of Transportation

May 31, 2011



The Honorable Patty Murray                           The Honorable Tom Latham
Chairman                                             Chairman
Subcommittee on Transportation,                      Subcommittee on Transportation,
Housing and Urban Development, and                   Housing and Urban Development, and
Related Agencies                                     Related Agencies
Committee on Appropriations                          Committee on Appropriations
United States Senate                                 United States House of Representatives
Washington, DC 20510                                 Washington, DC 20515

The Honorable Susan Collins                          The Honorable John W. Olver
Ranking Member                                       Ranking Member
Subcommittee on Transportation,                      Subcommittee on Transportation,
Housing and Urban Development, and                   Housing and Urban Development, and
Related Agencies                                     Related Agencies
Committee on Appropriations                          Committee on Appropriations
United States Senate                                 United States House of Representatives
Washington, DC 20510                                 Washington, DC 20515

Dear Chairmen Murray and Latham and Ranking Members Collins and Olver:

This report presents our assessment of Amtrak’s financial performance for the first
half of fiscal year 2011 (year-to-date) and Amtrak’s forecasted end of fiscal year
2011 financial performance. 1 The report also includes an update on Amtrak’s use
of its Key Performance Indicators (KPIs) to improve company performance and
assess progress of their improvement initiatives.




1
    The Transportation/HUD Division of the Consolidated Appropriations Act of 2010, Pub.L. No. 111-117
    requires the OIG to report semiannually on Amtrak's savings.

CC-2011-023
                                                                                                                                     2




SUMMARY

In the first 6 months of fiscal year 2011, Amtrak’s operating loss of $238.8 million
was $76.4 million (24.2 percent) less than budget projections, 2 and $24.4 million
less than its actual operating loss for the first 6 months of fiscal year 2010. Figure
1 shows the actual and budgeted operating losses on a monthly basis for the first
half of fiscal year 2011, as well as Amtrak's budgeted and forecasted operating
loss for its year-end. The less-than-budgeted operating loss was mostly due to less-
than-expected expenses. Amtrak projects that some of the savings achieved in the
first half of the year will be maintained through the end of the fiscal year. The
projected year-end operating loss is $506.9 million -- $85.1 million (14.4 percent)
less than budget projections, but $87.0 million more than fiscal year 2010. KPIs
appear to be useful to management in its efforts to improve services and financial
management.

Figure 1. Amtrak's Actual vs. Budget Operating Loss, Fiscal
Year 2011
                          0      ($37.0)
                                        ($65.6)
                                                   ($97.2)
                       (100)   ($40.6)                       ($142.2)
                                         ($77.0)
                                                                        ($193.0)
                                               ($132.7)                          ($238.8)
                       (200)
                                                          ($209.8)
    Operating Loss
     ($ in millions)




                       (300)                                          ($273.7)
                                                                                 ($315.3)
                       (400)
                                                                                                                                   ($506.9)
                       (500)

                       (600)
                                                                                                                                    ($592.0)

                       (700)
                                Oct      Nov       Dec       Jan        Feb        Mar      Apr      May   Jun         Jul   Aug      Sep

                                                                     Budget                 Actual          Forecast

Source: Amtrak
Note: Amtrak budgeted its year-end $592.0 million operating loss before Congress passed a
      fiscal year 2011 budget for the federal government.


2
        Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
        benefits basis, unless otherwise noted. This operating loss is a measure of Amtrak’s ability to operate
        within its available resources and serves as a reasonable proxy for Amtrak’s Federal operating support
        requirements.

CC-2011-023
                                                                                                  3




AMTRAK’S SIX MONTH OPERATING LOSS IS LESS THAN
BUDGETED BUT YEAR-END LOSSES ARE PROJECTED TO BE
GREATER THAN 2010

Amtrak's operating loss for the first 6 months of fiscal year 2011 was $76.4 million
less than budgeted due to revenues that were $7.9 million higher and expenses that
were $68.5 million lower than budgeted. Amtrak's operating loss for the first half
of fiscal year 2011 was also $24.4 million better than the company's actual
operating loss for the same period last year, despite an increase in this year's
operating expenses of $51.7 million. Table 1 details Amtrak's operating revenues,
expenses, and losses for the first half of fiscal year 2011 compared to the budgeted
amounts and the actual amounts for the same period in fiscal year 2010. Ridership
year-to-date was higher than anticipated because of the improved economy, higher
gasoline prices and consumer dissatisfaction with air travel. These factors are
described in more detail below.

Table 1. Amtrak’s Financial Performance, Fiscal Year 2011
(October - March)
                                                                    Variance
 ($ in millions)                 Actual                     Favorable / (Unfavorable)
                              Fiscal Year 2011    to Fiscal Year 2011       to Fiscal Year 2010
                                                         Budget                    Actual


 Operating Revenues             $1,263.7             $7.9     0.6%           $76.2      6.4%



 Operating Expenses              1,502.5             68.5     4.4            (51.7)     (3.6)

 Operating Profit /
                                   (238.8)           76.4     24.2             24.4     9.3
 (Loss)
 Source: Amtrak



While its operating loss for the first half of the fiscal year was 24.2 percent better
than budget estimates, Amtrak is projecting its operating loss to be just 3.1 percent
better than budget estimates for the second half of the fiscal year. This is based
primarily on projected increased operating expenses due to rising fuel prices. For
year-end, Amtrak forecasts a total operating loss of $506.9 million, $85.1 million
better than budget estimates, but $87.0 million worse than last fiscal year's actual
operating loss. The projected increases in spending on salaries, wages, and
benefits in the second half of fiscal year 2011 will result in a larger year-end

CC-2011-023
                                                                                                  4


operating loss than in fiscal year 2010. Table 2 details Amtrak's forecast for the
company's year-end operating revenues, expenses, and losses.

Table 2. Amtrak’s Forecasted Year-End Financial Performance,
Fiscal Year 2011

                                                                   Variance
 ($ in millions)              Forecast                     Favorable / (Unfavorable)
                            Fiscal Year 2011
                                                 to Fiscal Year 2011        to Fiscal Year 2010
                                                        Budget                     Actual


 Operating Revenues           $2,642.8            $47.5      1.8%          $158.4       6.4%



 Operating Expenses            3,149.7              37.5     1.2           (245.4)      (8.5)

 Operating Profit /
                                 (506.9)            85.1    14.4              (87.0)   (20.7)
 (Loss)
 Source: Amtrak



Operating Revenues

Revenues for the first half of fiscal year 2011 totaled $1.3 billion, $7.9 million
better than budget projections and $76.2 million better than actual revenues for the
same period last year. Passenger-related revenues alone totaled $1.0 billion,
$15.9 million (1.6 percent) better than budget projections and $68.2 million
(7.3 percent) better than the first half of fiscal year 2010.

Ticket revenue performance was driven by higher than expected ridership, as
illustrated in Table 3. Ridership for the first half of fiscal year 2011 was
1.1 percent better than projected, due in part to higher than expected ridership on
state-supported and other corridors (2.0 percent), and long distance routes
(1.1 percent). Amtrak attributes this performance primarily to rising consumer
fuel prices during the first half of the fiscal year. Northeast Regional ridership for
the first half of the fiscal year was 1.5 percent below budget projections. However,
overall ridership along the Northeast Corridor (NEC) nearly met projected budget
levels, and Acela ridership actually exceeded budget expectations by 3.2 percent.
According to Amtrak officials, the Acela service is capturing a greater business
travel market share from air travel due to, among other factors, the availability of
Wi-Fi on Acela trains.

Amtrak projects year-end operating revenues to total about $2.6 billion,
$47.5 million greater than budgeted and $158.4 million more than fiscal year

CC-2011-023
                                                                                                       5


2010. Amtrak forecasts ticket revenues to be $1.8 billion at year-end,
$62.1 million more than budget projections and $127.2 million more than fiscal
year 2010. According to Amtrak officials, the company anticipates another annual
ridership record this fiscal year, in keeping with 7 of the past 8 fiscal years.
Amtrak cites higher consumer gasoline prices and effective marketing campaigns
as significant factors in continuing ridership growth.


Table 3. Amtrak Ridership, Fiscal Year 2011 (October - March)

                                                                          Variance
 (Ridership in millions)                   Actual
                                        Fiscal Year 2011   to Fiscal Year 2011   to Fiscal Year 2010
                                                                  Budget                Actual
       †
 NEC                                          5.3            0.0    0.0%             0.2    3.9%
    Acela                                     1.7            0.1    3.2              0.1    8.4
    Northeast Regional                        3.6           (0.1)   (1.5)            0.1    1.9

 State-Supported and Other Corridors          7.0            0.1    2.0              0.5    7.7

 Long Distance                                2.2            0.0    1.1              0.1    5.3

           Amtrak Total                      14.4            0.2    1.1              0.8    5.9
Source: Amtrak
†: Total includes NEC special trains, not shown.
Note: Totals may not add due to rounding.


Operating Expenses

Operating expenses for the first 6 months of fiscal year 2011 totaled $1.5 billion,
$68.5 million better than budget projections, but $51.7 million more than the same
period last year. Lower than expected expenses were primarily due to savings
from costs associated with employee benefits ($45.0 million), fuel, power, and
utilities ($12.2 million). Employee benefits savings came from lower than
expected health care costs. The savings in fuel, power, and utilities resulted from
lower unit prices for power purchased on the NEC, as well as lower usage rates for
electricity and natural gas.

Amtrak forecasts that these savings will result in total expenses for the year of
$3.1 billion, $37.5 million less than budgeted but $245.4 million more than fiscal
year 2010 actual expenses. The projected increase in expenditures from fiscal year
2010 is primarily due to salaries, wages, and benefits, which are expected to
exceed fiscal year 2010 levels by $148.5 million.

CC-2011-023
                                                                                                             6


KPIs FACILITATED EFFORTS TO IMPROVE SERVICES AND
FINANCIAL MANAGEMENT

Management’s use of KPIs appears to have improved Amtrak’s services and
financial performance. Amtrak reports on eight efficiency and effectiveness KPIs
to measure the progress of the company's improvement initiatives. 3 For example,
officials told us that based on closely monitored Customer Satisfaction Index
(CSI) scores, which are effectiveness measures generated through feedback from
customer surveys, they adjusted cleaning and maintenance schedules on individual
routes. Furthermore, Amtrak is developing a computer system that will track CSI
scores by train crew so it can also monitor quality of service for individual crews.
At a higher management level, the Board of Directors now uses revenue per
available seat mile (RASM) and cost per available seat mile (CASM) to evaluate
individual routes' financial performance. Specifically, the Board of Directors uses
RASM and CASM from individual state-supported routes to compare and analyze
revenue gaps. According to Amtrak officials, this approach assists management to
identify and expedite the payment of outstanding state subsidies.

Amtrak was unable to provide us with the impact of improvement initiatives on
operating results because they are currently shifting budget and performance data
into a new automated system. According to Amtrak officials, this system will
allow them to track cost savings of both operating and capital improvement
initiatives. Amtrak expects to start reporting this cost savings data in fiscal year
2012.

We are transmitting copies of this letter to the Secretary of Transportation and the
Chairman of Amtrak’s Board of Directors. If you have any questions concerning
this letter, please contact me at (202) 366-1959 or Mitch Behm, Assistant
Inspector General for Rail, Maritime and Economic Analysis, at (202) 366-9970.

Sincerely,




Calvin L. Scovel III
Inspector General
cc:       Secretary of Transportation
          Chairman of Amtrak’s Board of Directors


3
    Amtrak originally reported on nine KPIs, but they no longer include Safety Ratio, which was calculated
    as the number of reportable injuries per 200,000 man hours of work.

CC-2011-023
